                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11   Case Number: A05050027
                                                                                  11          Page 1 of 1



          An allegation was received' that a reference in an NSF proposal2, which was cited several times
          in the text of the proposal as support for the proposed experimental work, was incorrect and
          perhaps fabricated. The citation given in the proposal3 was confirmed to be inaccurate, and
          database inquiry revealed a best fit to the putative r e f e r e n ~ e . ~

          The subject responded to our letter asking for clarification in a timely fashion, and admitted the
          appearance of the incorrect citation (characterizing it as inadvertent). The subject identified the
          correct citation as that identified as the best-fit choice. The subject enclosed a preprint of a
          manuscript now in review that represents the completed work. The preprint describes work in
          the same area of research as the abstract cited in the proposal.

          The allegation of a fabricated reference was not substantiated. No issues in this case remain
          &esolved.
